<html>
<title> - CONQUERING OBESITY: THE U.S. APPROACH TO COMBATING THIS NATIONAL HEALTH CRISIS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





CONQUERING OBESITY: THE U.S. APPROACH TO COMBATING THIS NATIONAL HEALTH 
                                 CRISIS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2004

                               __________

                           Serial No. 108-268

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-212                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
TODD RUSSELL PLATTS, Pennsylvania    JOHN F. TIERNEY, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
EDWARD L. SCHROCK, Virginia          STEPHEN F. LYNCH, Massachusetts
JOHN J. DUNCAN, Jr., Tennessee       CHRIS VAN HOLLEN, Maryland
NATHAN DEAL, Georgia                 LINDA T. SANCHEZ, California
CANDICE S. MILLER, Michigan          C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
MICHAEL R. TURNER, Ohio              ELEANOR HOLMES NORTON, District of 
JOHN R. CARTER, Texas                    Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio              BETTY McCOLLUM, Minnesota
KATHERINE HARRIS, Florida                        ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
           Phil Barnet, Minority Chief of Staff/Chief Counsel

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Chief of Staff
                Mindi Walker, Professional Staff Member
                        Danielle Perraut, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 15, 2004...............................     1
Statement of:
    Bost, Eric, Under Secretary for Food, Nutrition, and Consumer 
      Services, U.S. Department of Agriculture; and Ed Thompson, 
      M.D., M.P.H., Chief, Public Health Practice, Centers for 
      Disease Control and Prevention, U.S. Department of Health 
      and Human Services.........................................    11
    Kretser, Alison, director of scientific nutrition policy, 
      Grocery Manufacturers of America; Hunt Shipman, executive 
      vice president, government affairs and communications, 
      National Food Processors Association; Morgan Downey, 
      executive director, American Obesity Association; Dr. 
      Daniel Spratt, director, reproductive endocrinology, Maine 
      Medical Center, Endocrine Society of America; and Dr. 
      Thomas Wadden, vice president, North American Association 
      for the Study of Obesity...................................    57
Letters, statements, etc., submitted for the record by:
    Bost, Eric, Under Secretary for Food, Nutrition, and Consumer 
      Services, U.S. Department of Agriculture, prepared 
      statement of...............................................    14
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     4
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   105
    Downey, Morgan, executive director, American Obesity 
      Association, prepared statement of.........................    76
    Kretser, Alison, director of scientific nutrition policy, 
      Grocery Manufacturers of America, prepared statement of....    59
    Shipman, Hunt, executive vice president, government affairs 
      and communications, National Food Processors Association, 
      prepared statement of......................................    70
    Spratt, Dr. Daniel, director, reproductive endocrinology, 
      Maine Medical Center, Endocrine Society of America, 
      prepared statement of......................................    88
    Thompson, Ed, M.D., M.P.H., Chief, Public Health Practice, 
      Centers for Disease Control and Prevention, U.S. Department 
      of Health and Human Services, prepared statement of........    24
    Wadden, Dr. Thomas, vice president, North American 
      Association for the Study of Obesity, prepared statement of    93

 
CONQUERING OBESITY: THE U.S. APPROACH TO COMBATING THIS NATIONAL HEALTH 
                                 CRISIS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 15, 2004

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives Burton, Watson, and Waxman.
    Staff present: Mark Walker, chief of staff; Mindi Walker, 
Brian Fauls, and Dan Getz, professional staff members; Nick 
Mutton, press secretary; Danielle Perraut, clerk; Kristin 
Amerling, minority deputy chief counsel; Karen Lightfoot, 
minority senior policy advisor and communications director; 
Anna Laitin, minority communications and policy assistant; Josh 
Sharfstein and Richard Butcher, minority professional staff 
members; Earley Green, minority chief clerk; and Cecelia 
Morton, minority office manager.
    Mr. Burton. Good morning. A quorum being present, the 
Subcommittee on Human Rights and Wellness will come to order.
    I ask unanimous consent that all Members' and witnesses' 
written and opening statements be included in the record. 
Without objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular material referred to be included in the 
record. Without objection, so ordered.
    In the event that other Members from Congress attend the 
hearings today, I ask unanimous consent that they may be 
permitted to serve as a member of the subcommittee for today's 
hearing only. Without objection, so ordered.
    The reason we are convening today is because we are going 
to talk about a subject that is very, very important not only 
to the people of this country, but to the Government of the 
United States. Obesity is an ever-increasing concern of 
everybody. We just found out recently, when we started looking 
into this, that 31 percent of adults over the age of 20 in the 
United States are considered obese. That is almost one out of 
three. In addition, the data that we found also shows that 65 
percent, almost two out of three people in this country, are 
overweight.
    Now, why is that important? The reason it is important is 
because of the tremendous costs and burdens that it puts on the 
health care system. Right now, 129.6 million adults who are 
currently living here in the United States have an unhealthy 
weight level, and that is an increase of 54.9 percent, almost 
55 percent in the last decade alone. So we are eating ourselves 
into the grave. That is a terrible thing to say, but it is the 
truth.
    The health concerns related to overweight and obesity: high 
blood pressure, high cholesterol levels, diabetes, heart 
disease, increased probability of having a stroke and certain 
types of cancer such as breast, colon, and prostate cancer, not 
to mention, as I said, premature death.
    Now the Federal Government is classifying obesity not just 
a behavioral problem, but a disease as well, and HHS is 
conducting in-depth research into the underlying causation of 
obesity, not discounting a genetic or predetermined basis for 
the disease.
    A study of the national costs attributed to both overweight 
and obesity-related services specify that medical expenses 
accounted for 9.1 percent of the total U.S. medical 
expenditures in 1998, and that reached a total dollar amount of 
roughly almost $79 billion. So we are not talking about chump 
change here. That would equate today, in 2003 or 2004 dollars 
to almost $95 billion. And approximately half of those costs 
were compensated for by funds allocated to Medicare and 
Medicaid. So the Government and the taxpayers have a vested 
interest in finding solutions to this problem.
    Now, this is very interesting. In Indiana, my home State, 
according to information released by the Behavioral Risk 
Factors Surveillance System at CDC, over $1.6 billion is spent 
annually by the taxpayers of Indiana due to health implications 
linked directly to obesity. Now, for my colleague from 
California, Mr. Waxman, it is $7.7 billion, which is over 10 
percent of the total obesity costs in the United States. So we 
have a problem in Indiana; you have a bigger problem in 
California.
    Fortunately, the Federal Government and private 
organizations have created several programs to combat and bring 
awareness to obesity. The Division of Nutrition and Physical 
Activity at the CDC has developed and designed a program to 
help States improve their efforts to present obesity by 
promoting good nutrition and more physical activity.
    Currently, 20 States are involved in that program, but we 
need to be more involved. And the people of this country need 
to be aware that obesity is not only a burden to them, but a 
burden to everybody, their neighbors and every taxpayer across 
this country. And physical activity is really important to good 
diet.
    We need to also be talking to our fast food restaurants and 
the people who package foods and put them in the supermarkets, 
to make sure that they create food stuffs that we can consume 
that are nutritious and taste good, but aren't going to kill 
us. And that is one of the reasons why we are having this 
hearing today.
    To speak on these and other initiatives to prevent and 
combat obesity, we will hear today testimony from Dr. Ed 
Thompson, Chief of Public Health Practice at CDC. And as the 
Federal agency charged with ensuring the safe production of 
food and the management of Federal food assistance programs, 
the U.S. Department of Agriculture is also concerned, and they 
have one of their representatives here. We have the pleasure of 
receiving testimony from Eric Bost, the Under Secretary for 
Food, Nutrition, and Consumer Services at USDA. And he is going 
to be testifying about the current USDA outreach programs.
    As I said before, it is imperative that the Government of 
the United States work with the private sector to find 
solutions to this problem. I don't mean to be facetious, but it 
is growing at a very rapid rate, and we have to do something 
about it.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T8212.001
    
    [GRAPHIC] [TIFF OMITTED] T8212.002
    
    [GRAPHIC] [TIFF OMITTED] T8212.003
    
    [GRAPHIC] [TIFF OMITTED] T8212.004
    
    [GRAPHIC] [TIFF OMITTED] T8212.005
    
    [GRAPHIC] [TIFF OMITTED] T8212.006
    
    Mr. Burton. With that, I would like to yield to a gentleman 
that really does watch his weight, and I go down to the gym and 
I will see him on the workout equipment, working for hours at a 
time; and his heart beat, I think, is three beats per minute, 
so I know he is in good health, Henry Waxman, the ranking 
member of the committee.
    Mr. Waxman. Thank you, Mr. Chairman, for your kind words 
and for holding this hearing.
    Rising rates of obesity in the United States represent a 
public health crisis. Obesity causes heart disease and 
diabetes, it is associated with premature death, and it is 
responsible for billions of dollars in health care costs.
    The burden of obesity will affect every corner of our 
society, but it will not be spread equally. Obesity harms the 
poor more than the well-off, threatens certain racial and 
ethnic groups more than others, and in any given area can be 
concentrated among those who have fewer opportunities to 
exercise and less access to nutritious food. It is a special 
responsibility of Government to address disparities in health, 
and today I would like to focus on Government's efforts to 
address especially high rates of obesity among the 
disadvantaged communities in our society.
    We all know that the Food Stamp Program prevents 
malnutrition and hunger for millions of Americans each year. 
Food stamps also play an important role in promoting good 
nutrition. Each year the Federal Government sends more than 
$150 million to the States to provide nutritional education and 
services that help to address obesity. In my home State of 
California, these funds support more than 190 programs in 4,000 
low-income schools and communities.
    This spring the U.S. Department of Agriculture proposed 
major changes in nutrition education funded through the Food 
Stamp Program. Instead of encouraging community-wide education 
in schools, churches, and other settings, USDA is now asking 
that programs narrowly target women who are food stamp 
participants and applicants. I also understand that USDA is 
discouraging programs from focusing on the nutritional needs of 
particular high-risk groups such as obese of individuals with 
Type 2 diabetes.
    California is objecting to USDA's proposal. According to 
the State's leading public health officials, the planned 
changes will reduce the number of Californians served by more 
than 80 percent, will eliminate programs in churches and 
community centers across the State, and will lead to a loss of 
as much as $80 million in Federal funding. California's leading 
public health official has stated that USDA's new strategy 
would support ``inefficient approaches.'' He also told USDA 
that, if enacted, the proposal would devastate the State's 
successful efforts to provide nutrition education to poor and 
minority communities.
    I am pleased that Under Secretary Bost is here today to 
discuss these issues with the committee. It is my hope that we 
can have a productive conversation about how to resolve these 
serious concerns about USDA's proposals.
    I would also like to thank all of the witnesses for coming, 
and I look forward to their testimony.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Congressman Waxman.
    We will now hear from the Under Secretary for Food, 
Nutrition, and Consumer Services at the USDA, the Honorable 
Eric Bost; and also the Honorable Ed Thompson, M.D., M.P.H. He 
is the Chief of Public Health Practice Centers for CDC, U.S. 
Department of Health and Human Services.
    As is our custom, would you please rise so you can be sworn 
in?
    [Witnesses sworn.]
    Mr. Burton. We will start with Under Secretary Bost. And 
what I would like, because we have another meeting at 4, I 
would like to try to hold the opening statements, if possible 
to 5 minutes. Thank you very much.

 STATEMENTS OF ERIC BOST, UNDER SECRETARY FOR FOOD, NUTRITION, 
 AND CONSUMER SERVICES, U.S. DEPARTMENT OF AGRICULTURE; AND ED 
THOMPSON, M.D., M.P.H., CHIEF, PUBLIC HEALTH PRACTICE, CENTERS 
 FOR DISEASE CONTROL AND PREVENTION, U.S. DEPARTMENT OF HEALTH 
                       AND HUMAN SERVICES

    Mr. Bost. Good afternoon, Mr. Chairman and Congressman 
Waxman. It is indeed a real pleasure for me to be here. For the 
record, I am Eric Bost, Under Secretary for Food, Nutrition, 
and Consumer Services at U.S. Department of Agriculture. I am 
here today to speak about our efforts to combat the national 
obesity crisis.
    We currently administer 15 nutrition programs, serving one 
out of every five Americans, including the Food Stamp Program, 
the National School Lunch Program, Breakfast Program, and WIC--
Women, Infants and Children. We are also responsible for food 
guidance, currently the Food Guide Pyramid and, in cooperation 
with our colleagues at Health and Human Services, the Dietary 
Guidelines for Americans.
    I have two main points in my testimony that I would like to 
share with you. One, as the chairman noted, we have a serious 
obesity epidemic that is currently existing in this country in 
both adults as well as children, and we have several 
initiatives to combat it, but it is real important to know that 
we cannot do it alone.
    Just a couple of statistics. Over 400,000 deaths a year 
related to poor diet and physical activity; it is, right now, 
the second leading cause of preventable death, after smoking, 
and soon will surpass deaths from smoking; diabetes has 
increased by 49 percent in the last 10 years; one in three 
persons born in 2000 will develop diabetes if there is no 
change in the current health habits; alarming trends among 
children in the past 20 years, the percentage of children who 
are overweight has doubled and the percentage of adolescents 
who are overweight has more than tripled. Most importantly, 
this may be the first generation of children not to live as 
long as their parents as a direct result of this issue.
    You talked about the costs. I do want to note one thing: 
$117 billion a year in 2000 in direct and indirect costs; also, 
obesity as it relates to the individual.
    If you are overweight, it will probably take 3 years off of 
your life. Obese persons will probably take 7 years off of 
their life. And if you are obese and smoke, you are shortening 
your life by probably 13 years. Why? The immediate reasons 
appear to be somewhat simple. We eat too much, we eat too many 
of the wrong things, and we get too little physical activity. 
It seems very simple, but in terms of addressing it, it is 
really not because of a couple of things. One, we have some of 
the best food in the entire world: the widest variety, the 
highest quality, the most safe and most affordable food 
anywhere. Also, as Americans, we love a good deal. Super-sizing 
is just a few cents more; all-you-can-eat buffets. And, last 
but not least, one of the struggles that we are having is it 
has to be rooted in a behavior change and, as Americans, we 
hate to have someone tell us what to do.
    Children are a very special challenge for us. Kids' choices 
are shaped by their surroundings: at home, in school, and in 
the wider community. Also, television and computers draw 
children away from sports and physical activity. In terms of 
some of our efforts to address this issue at USDA, which we 
believe is very important, first of all, there is a conference 
that Health and Human Services will participate with us next 
month to talk about the leading research regarding what we can 
do to address this issue. As part of our nutrition promotion 
and education, as a part of our WIC Program, we are currently 
reviewing the WIC food package. Also, we have a breastfeeding 
promotion, and breastfeeding is directly related to children 
that are healthy and, for whatever reason, don't tend to be as 
obese when they grow up.
    Also, we have programs that are focusing on school-aged 
children: our HealthierUS Initiative, in coordination with 
Health and Human Services and also the Department of Education; 
our Eat Smart. Play Hard. Campaign which is in school; also, 
Changing the Scene, which is a nutrition education in the 
school; also, our Team Nutrition Program; Fruits and Vegetables 
Galore; Making it Happen; and also one of the things that we 
are starting is HealthierUS Challenge, where we will identify 
schools that have done an outstanding job in terms of providing 
healthier alternatives to children in schools.
    Across all of our populations, we have a 5 A Day Program, 
in partnership with the National Cancer Institute and CDC; and 
our Food Stamp Nutrition Education Program that Congressman 
Waxman made note of. We are currently in a review of the Food 
Guide Pyramid or Food Guide Guidance, and also the development 
and review of the Dietary Guidelines.
    Just recently, June 30th of this year, the President signed 
the Child Nutrition bill, which was just reauthorized. Right 
now almost 29 million children are served in the National 
School Lunch Program and reauthorization in terms of working 
with Congress, we were able to ensure that children have 
improved access to school meals for eligible children by 
requiring direct certification through the Food Stamp Program, 
streamlining the process so that all children in households can 
apply at one time, and making certification valid for the 
entire year. Also, the act provides funding to work with 
schools to establish their own health, nutrition education, and 
physical activity goals and initiatives, and also it extends 
and expands the Fresh Fruit and Vegetables pilots that 
distributed free fruits and vegetables to schools to encourage 
health alternatives to non-nutritious foods and snacks in eight 
schools and on three Indian reservations.
    Why are schools so important and why are our programs so 
critical? The research indicates that kids who eat school lunch 
eat nearly twice as many vegetables. Kids who eat school 
breakfast eat twice as many servings of fruit. In terms of the 
food that is provided in the National School Lunch Program, the 
total fat has been reduced from 38 percent to 34 percent over 
the last several years.
    In conclusion, Government, we believe, has a critical role 
to play in addressing the obesity issue in this country and in 
promoting and moving Americans toward a healthier lifestyle, 
and I think that is the issue for me that I really want to 
stress. It is not only obesity that we are talking about, it is 
the issue of ensuring that people make wise and informed 
decisions about what they eat, how much they eat, some level of 
physical activity.
    It is also important, I believe, to realize too that we 
cannot do this by ourselves. We need the partnership with 
media, researchers, industry, teachers, administrators, and 
especially with parents in terms of being role models for their 
children. And last but not least, we need individuals to accept 
some level of personal responsibility to make healthy choices. 
Regardless of the information that we provide, regardless of 
the changes that we make, it still comes down to a person and a 
parent making an informed decision and choice for their 
children, and I think that is very important.
    Thank you very much. I would be happy to answer any 
questions that you may have.
    [The prepared statement of Mr. Bost follows:]

    [GRAPHIC] [TIFF OMITTED] T8212.007
    
    [GRAPHIC] [TIFF OMITTED] T8212.008
    
    [GRAPHIC] [TIFF OMITTED] T8212.009
    
    [GRAPHIC] [TIFF OMITTED] T8212.010
    
    [GRAPHIC] [TIFF OMITTED] T8212.011
    
    [GRAPHIC] [TIFF OMITTED] T8212.012
    
    [GRAPHIC] [TIFF OMITTED] T8212.013
    
    [GRAPHIC] [TIFF OMITTED] T8212.014
    
    Mr. Burton. Thank you, Mr. Secretary.
    Dr. Thompson.
    Dr. Thompson. Mr. Chairman, members of the committee and 
committee staff, I thank you for the opportunity to participate 
in today's hearing. I am Dr. Ed Thompson, Chief of Public 
Health Practice at the Centers for Disease Control and 
Prevention, an agency of the Department of Health and Human 
Services. Today I will present an overview of the overweight 
epidemic in our Nation and identify a number of Department of 
Health and Human Services initiatives and programs designed to 
combat these epidemics in poor nutrition, physical activity, 
and obesity.
    If you look at the chart to my left and to your right, you 
see maps showing the percentage of the population of each State 
in 1994, 1999, and 2003 who were obese as measured by our 
behavioral risk factor surveillance system. Nearly two-thirds 
of adults in this country are overweight or obese, with nearly 
30 percent overall being obese, as you have correctly noted, 
Mr. Chairman.
    What you see there in lighter blue, that is 10 to 14 
percent of the population being obese; not overweight, but 
obese. And the lighter blue which appears in 1994 disappears 
after 2001. The darker blue is 15 to 19 percent. Beginning in 
1997 you see some red, and on that chart there you see it in 
2003; it appears first several years before. That means that 20 
percent of the adults in that State, one out of every five, are 
obese.
    Finally, in 2003 we have had to introduce a new color, and 
that is gold. In 1999 it appears in many States. I am sorry, 
the gold is 20 percent are obese; the red is the new color 
introduced in 2003, and that represents 25 percent or more of 
the population. One out of every four adults in those States is 
obese, and in 2003, as you can see, five States had one in four 
adults who were obese.
    Overweight and obesity and associated risk factors of poor 
diet, physical activity, and other contributing factors 
contribute to chronic conditions such as heart disease, stroke, 
diabetes, and certain cancers. A recent study estimates that 
4,000 adult deaths each year in the United States are 
associated with poor diet and physical inactivity. That is as 
many Americans as died in all of World War II.
    We have already begun to see the impact of the obesity 
epidemic on the health of young people. Type 2 diabetes, 
strongly associated with obesity, was virtually unknown in 
children and adults 10 years ago. Today it accounts for almost 
50 percent of new cases of diabetes among youth in some 
communities.
    A CDC report predicts that one in every three Americans 
born in 2000, that is, the children now entering kindergarten, 
will develop diabetes during his or her lifetime. Successfully 
combating the overweight epidemic in our Nation requires the 
involvement of many sectors and levels of society. Although 
national initiatives can play an important role, they are not 
sufficient by themselves; community-based initiatives are 
critical for reaching Americans where they live, work, go to 
school, and play. State level programs are critical for 
supporting and disseminating community-based activities.
    DHHS is implementing a comprehensive approach to reach the 
American people through these various levels. CDC uses multiple 
approaches to address obesity and its risk factors, including 
funding State health departments, school-based programs, a 
national media campaign, and community-based programs. The 
Steps to a HealthierUS cooperative agreement program is 
designed to promote programs that reduce the burden of chronic 
disease and address the associated risk factors.
    Steps targets diabetes, overweight, obesity, and asthma, 
and addresses the associated risk factors of physical 
inactivity, poor nutrition, and tobacco use. CDC funds 28 State 
Health Departments to prevent and reduce obesity, and we fund 
23 State Departments of Education to implement coordinated 
school health programs to help ensure that students receive 
instruction on nutrition, physical activity, and tobacco use 
prevention.
    CDC's youth media campaign, called ``VERB. It's what you 
do,'' is the largest national multicultural campaign designed 
to increase levels of physical activity among youth. After 1 
year, the impact has been demonstrated by substantial 
improvements, including the average 9 to 10-year-old American 
child in the Nation, after the campaign, who was exposed to the 
VERB campaign, engaged in 34 percent more sessions of free time 
physical activity when compared with children who were unaware 
of the VERB campaign.
    Two recent major initiatives tied to obesity within the 
Department of Health and Human Services are the Food and Drug 
Administration's Obesity Working Group, which will advise the 
agency on innovative ways to deal with the increase in obesity 
and identify ways to help consumers lead healthier lives, and 
the National Institutes of Health development of an Obesity 
Research Task Force to develop a strategic plan for obesity 
research.
    In October DHHS and USDA will host a national obesity 
prevention conference. The conference's objective is to learn 
from past and current research, identifying steps we can take 
to prevent further increases in the prevalence and severity of 
obesity.
    We are learning a great deal about effective strategies for 
promoting physical activity and healthy eating. We know that no 
one strategy alone will be sufficient. Our chances of success 
will be greatest if we use multiple strategies to address 
numerous factors that contribute to caloric imbalance. DHHS is 
helping lead the national effort to combat the epidemic of 
overweight and obesity through a comprehensive, multifaceted, 
multilevel approach. We are committed to doing all we can to 
help our Nation enjoy good health now and for a lifetime.
    We thank you for your interest and for the opportunity to 
share information about these strategies with you, and we will 
be happy to answer your questions at the appropriate time.
    [The prepared statement of Dr. Thompson follows:]

    [GRAPHIC] [TIFF OMITTED] T8212.015
    
    [GRAPHIC] [TIFF OMITTED] T8212.016
    
    [GRAPHIC] [TIFF OMITTED] T8212.017
    
    [GRAPHIC] [TIFF OMITTED] T8212.018
    
    [GRAPHIC] [TIFF OMITTED] T8212.019
    
    [GRAPHIC] [TIFF OMITTED] T8212.020
    
    [GRAPHIC] [TIFF OMITTED] T8212.021
    
    [GRAPHIC] [TIFF OMITTED] T8212.022
    
    [GRAPHIC] [TIFF OMITTED] T8212.023
    
    [GRAPHIC] [TIFF OMITTED] T8212.024
    
    [GRAPHIC] [TIFF OMITTED] T8212.025
    
    [GRAPHIC] [TIFF OMITTED] T8212.026
    
    [GRAPHIC] [TIFF OMITTED] T8212.027
    
    [GRAPHIC] [TIFF OMITTED] T8212.028
    
    [GRAPHIC] [TIFF OMITTED] T8212.029
    
    [GRAPHIC] [TIFF OMITTED] T8212.030
    
    [GRAPHIC] [TIFF OMITTED] T8212.031
    
    [GRAPHIC] [TIFF OMITTED] T8212.032
    
    [GRAPHIC] [TIFF OMITTED] T8212.033
    
    [GRAPHIC] [TIFF OMITTED] T8212.034
    
    [GRAPHIC] [TIFF OMITTED] T8212.035
    
    [GRAPHIC] [TIFF OMITTED] T8212.036
    
    [GRAPHIC] [TIFF OMITTED] T8212.037
    
    [GRAPHIC] [TIFF OMITTED] T8212.038
    
    Mr. Burton. Thank you very much, doctor.
    We have been joined by the ranking member of the 
subcommittee, Ms. Watson.
    Did you have an opening you would like to make, Ms. Watson?
    Ms. Watson. Yes. Thank you so much, Mr. Chairman. I 
especially want to commend you because of your strong 
leadership on the issue of America's health and well being time 
and time again.
    The prevalence of obesity in the United States in both 
adults and children is increasing at an alarming rate. 
Currently, about 127 million Americans are labeled overweight 
and about 60 million of the population is considered obese. On 
top of that, about 9 million individuals are considered 
extremely obese. In addition, a 2004 study released by the 
Department of Health and Human Services Centers for Disease 
Control and Prevention shows that deaths due to poor diet and 
physical inactivity rose by an astounding 33 percent over the 
past decade. Several experts speculate that obesity may soon 
overtake tobacco as the leading preventable cause of death.
    Mr. Chairman, I must emphasize again that obesity in the 
United States has reach epidemic proportions. The CDC has 
ranked obesity as the No. 1 health threat facing America. In a 
larger perspective, obesity is global, not just a problem of 
the United States. Recent estimates are that about 300 million 
worldwide are affected by obesity. Up to 20 percent of men and 
25 percent of women in European countries are considered obese. 
According to the National Institutes of Health, overweight 
refers to increased body weight that is at least 10 percent 
over a recommended weight relative to the individual.
    These recommended weight standards are generated based on a 
sampling of the U.S. population or by body mass index [BMI], a 
calculation that assesses weight relative to height. The NIH 
states that all adults age 18 or older who have a BMI of 25 or 
greater are considered at risk for premature death and 
disability as a consequence of their fat to lien muscle mass 
ratio. Obese is commonly referred to as any individual with a 
BMI greater than 30.
    Mr. Chairman, there are two specific concerns that I would 
like to highlight, in addition to those that our witnesses will 
provide today. The areas are health and financial concerns 
regarding obesity. First the health concerns. To name a few, 
overweight and obese people are at an increased risk of 
developing any of the following: cardiovascular disease, 
diabetes, stroke, hypertension, angina, gout, fatty liver 
disease, sleep apnea, fertility complications, psychological 
disorders, cancer of the kidney, breast, colon cancer, rectum 
cancer, esophagus, prostate cancer, and gallbladder.
    Americans with low income levels and minorities are 
disadvantaged in gaining treatment due to the disparities in 
our health care system. More attention must be directed into 
prevention and awareness of obesity long before related 
illnesses and diseases attach.
    In addition to the health impact of obesity, there are also 
great economic consequences on the U.S. health care system. 
Direct medical costs include preventative, diagnostic, and 
treatment services relative to obesity. Indirect costs relate 
to morbidity and mortality costs. There is an opportunity to 
reduce costs because obesity is a preventative condition. 
Socioeconomically, lower income groups and minorities tend to 
be more obese.
    Another economic situation that should be brought to the 
subcommittee's attention may have serious consequences in my 
State of California. In May, USDA proposed major changes to 
nutrition education funded through the Food Stamp Program. This 
program provides major funding to State public health efforts 
to combat obesity. The proposed changes would dramatically 
restrict what States can do with the money, forcing them to 
abandon community-wide efforts to do targeted counseling to 
women with children who are on food stamps.
    On July 27, 2004, California strongly objected to the 
proposed changes. The chief public health officer wrote: ``For 
USDA to reserve directions contradicts all that we know about 
effective strategies.'' California said the new proposal would 
result in fewer low-income people being served and undermine 
hunger prevention.
    If this framework becomes effective in 2006, few of today's 
in-kind contributions would continue to qualify for Federal 
financing participation. California would lose most, if not 
all, of its more than $80 million in Federal matching funds. 
Financially, the $21.3 billion spent in 2000 on health care and 
lost productivity attributable to physical inactivity, obesity, 
and overweight, and the $1.7 billion attributable to obesity in 
the Medi-Cal program would continue to rise unchecked. Rather 
than being a partner with States, this framework would abandon 
them, abdicating USDA's responsibility for good nutrition, 
nutrition education of low-income Americans, and helping to 
reverse the Nation's obesity epidemic.
    So, Mr. Chairman, I look forward to the continuing 
testimony of today's witnesses and the positive solutions that 
our witnesses can provide.
    I yield back the balance of my time. Thank you.
    Mr. Burton. Thank you. It is nice to have you with us, as 
usual. You look like a fashion plate that just stepped out of 
one of the magazines.
    Did I understand you to say that there were 400,000 deaths 
that could be prevented a year if we watched our weight? Is 
that correct?
    Mr. Bost. Yes.
    Mr. Burton. 400,00 a year.
    Mr. Bost. That is correct.
    Mr. Burton. I hope everybody who is paying attention to 
this will listen; 400,000.
    Mr. Bost. And increasing all the time.
    Mr. Burton. Yes. And you said it is $117 billion in direct 
or indirect costs?
    Mr. Bost. That is correct. That is based on 2000 figures 
that we got from CDC.
    Mr. Burton. That is based on 2000 figures.
    Mr. Bost. Yes.
    Mr. Burton. So it is probably higher now.
    Mr. Bost. Well, the most recent figures, if you 
extrapolate, would indicate it is up to $123 billion.
    Mr. Burton. $123 billion.
    Mr. Bost. Yes. That is correct.
    Mr. Burton. And a lot of that is paid through Medicare and 
Medicaid.
    Mr. Bost. Yes.
    Mr. Burton. So the taxpayers are funding a lot of that.
    Mr. Bost. Yes.
    Mr. Burton. I am reiterating this because I think it is 
very significant. You said children born today, one out of 
three will get diabetes?
    Mr. Bost. That is correct. If they keep eating like they 
are eating, that is correct.
    Mr. Burton. And that is preventable if they had a balanced 
diet and watched their caloric intake and the fat intake.
    Mr. Bost. That is correct, along with some level of 
physical activity.
    Mr. Burton. Right. You said something about sleep apnea. 
Which one of you said that?
    Ms. Watson. I did.
    Mr. Burton. You did.
    Mr. Bost. Congresswoman Watson said something about sleep 
apnea.
    Mr. Burton. As one of the causes. Well, the reason that 
rang a bell with me is I have to tell you a story, and this 
will be humorous, but it is true. When I was a boy, we lived 
across the street from the schoolyard, and we didn't have much 
money, so mom fixed foods that were quick and fast. She was a 
waitress and she would come and fix dinner; a lot of them have 
a lot of caloric problems and fat problems.
    And my brother, who is 7 years my junior, I would say at 
dinner, I am finished, can I go play basketball across the 
street. And she would say, you eat like a bird; you are going 
to die. And then she would say, OK, go ahead and play. And then 
as I walked out the door, she would say, look at your little 
brother. He was in a highchair and she was shoveling food into 
him, saying, he is a good eater; he is going to be real 
healthy.
    Well, the reason I bring that up is because it is like a 
record playing in people's head. And my brother today has a 
very serious weight problem that he has to fight all the time, 
as well as ancillary problems including sleep apnea. And the 
reason I say that, because if anybody is paying attention 
besides the people in this room, what parents teach their kids 
in their formative years or very early years does stay with 
them for a lifetime, and if you force-feed a child like my mom 
did--and she was well intentioned, a wonderful lady--then what 
you are doing is creating that record in their brain that is 
going to be playing over and over again that they are going to 
be using throughout their life, and it is going to cause them 
to eat more than they should.
    Now, that may seem like a very simple thing to state, but I 
am absolutely convinced that is why my brother has had this 
weight problem throughout his life. And I think that is why I 
didn't, because I was fortunate enough to be a little older and 
be able to run across the street without eating all that food 
and play in the schoolyard. So I just thought I would throw 
that out as an object lesson.
    I don't have a lot of questions, but I think it is 
extremely important, and I guess I would suggest this as a 
charge to the health agencies, that the education of the 
American people need to be increased through public service 
announcements, through all kinds of ways that you can think of. 
We need to be telling parents don't feed your kids too much. 
When they are ready to quit eating, let them quit eating, like 
they should have done with my brother. And, also, teach them, 
like you said, that vegetables and fruits are not something 
that you should just have as an ancillary part of the meal, 
because they don't have a lot of calories and they won't put on 
a lot of weight.
    So I really appreciate your being here today. You guys have 
a big job on your hands, especially when you look at the growth 
in obesity in this country, but I do appreciate your hard work.
    With that, I will yield to my colleague, Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    Public health experts believe that social marketing 
campaigns are a critical part of the efforts to reduce obesity. 
These campaigns aim to change community norms about nutrition 
and food. Yet USDA's proposal withdraws support from virtually 
all social marketing efforts in favor of one-on-one counseling 
sessions. California's leading public health official in the 
Schwarzenegger administration has said that this proposal would 
lead to the adoption of ineffective approaches.
    Mr. Bost, do you disagree with public health experts who 
say it is important to address obesity at a community level?
    Mr. Bost. Well, Mr. Waxman, let me put my response in terms 
of your question in some framework in terms of this issue of 
the Food Stamp Nutrition Education Program, because I had the 
opportunity last week of going to California and meeting with 
the leadership there about this specific issue.
    In May we issued a draft framework so that we could start a 
dialog and seek public comment on what we believe we could do 
with the States and our partners to improve the Food Stamp 
Nutrition Education Program. We were looking at several things: 
one, how to organize it more effectively and more efficiently 
to maximize the outreach efforts and the impact it may have on 
low-income people; and, also, how could it be better 
coordinated, more effectively coordinated with all of the other 
efforts that we were attempting to implement.
    In addition to that, and with that in mind, this was not, 
and I repeat, not an effort about reducing funding or nutrition 
education, or reducing access to the Food Stamp Program, or 
rejecting social marketing or eliminating school-based efforts. 
For whatever reason, many of the folks in California took it to 
mean that, but it wasn't that at all.
    In addition to that, we had received over 1,000 comments. 
The vast majority came from California, and they repeated many 
of the things that you did say. However, we did have some 
States who did not necessarily agree with the position that 
California took. The point that we are interested in making is 
that we have X amount of dollars to reach a targeted group of 
people, those who participate in the Food Stamp Program, and we 
sent the draft framework out to receive input how could we more 
efficiently and effectively address this specific target 
population. It was by no means to eliminate any of the things 
that you noted in your comments, not at all.
    Mr. Waxman. Since you sent it out and you are getting 
comments, does that mean that you are open to hearing the 
criticisms that we are hearing overwhelmingly from 
Californians, democrat and republican people, in the 
administration in Sacramento?
    Mr. Bost. Absolutely. That is why I went to California, to 
meet with the leadership to talk about it, because so many of 
the comments did come from California. And the thing that I 
would also like to leave you with is that no final decision has 
been made, and I left it with the folks in California to 
discuss it.
    Mr. Waxman. Well, I am happy to hear that. Let me just ask 
you some of the underlying philosophy that public health 
experts are raising as you consider your proposal. Health 
experts have argued that it is better to try to change the 
culture of a community, how they look at nutrition, than just 
one-on-one counseling. As I understand it, it is hard to 
convince an individual to buck what the rest of the community 
is doing, it is a difficult message to sell, and they believe 
the most effective approach is to change the norm and improve 
the health of the whole community. Do you see that as a 
reasonable approach?
    Mr. Bost. Oh, absolutely. However, with food stamp 
nutrition education money, the money is specifically designated 
to address those people who participate in the Food Stamp 
Program. So for us to say or for me to say that I am going to 
use that money and that we may, just by happenstance, address 
people who participate in the program, but I am going to get 
everybody else, I can't do that. Congress says I can't do that. 
The statute is very clear about how I can use that money. What 
we were interested in doing was to talk with the States about 
we can more efficiently and effectively address that, and do it 
without adversely affecting what California is doing.
    Mr. Waxman. Well, that is the key, because California is 
trying to take a much more broad approach than going 
specifically to individuals, because the public health experts 
there believe that is the only way you are going to really be 
effective, and we want a program that is effective. USDA's 
proposal prioritizes nutrition education for women with 
children. California is concerned this priority would 
jeopardize funding for many specific educational programs, 
including those geared to children in the LA unified school 
district and those geared to diabetics.
    Does the USDA believe that a one-size-fits-all approach is 
better than strategies designed at the community level?
    Mr. Bost. No, absolutely; and the framework didn't say 
that. In addition to that, when we looked at the approximately 
24----
    Mr. Waxman. Well, I am not arguing about what the framework 
says, but these are the questions that are being raised as to 
whether it fits in with that framework, and I suppose you are 
going to evaluate it. Given the scientific evidence about 
escalating rates of obesity in children, shouldn't USDA be 
prioritizing children as well?
    Mr. Bost. Well, we have, because if you look at the number 
of people who participate in the national Food Stamp Program, 
of the 24 million, over 50 percent are children.
    Mr. Waxman. Given the tight link between obesity and Type 2 
diabetes, is there anything wrong with States trying to reach 
out to diabetics for nutrition education?
    Mr. Bost. No, not at all.
    Mr. Waxman. California has said it would lose up to $80 
million in Federal funding because of the limitations on 
nutrition education that they thought USDA is proposing. Yet 
these limitations do not appear to be well justified. I think 
what we are asking on a bipartisan basis in the congressional 
delegation, what the people in California on a bipartisan basis 
are also asking, is that you take a look at this, because they 
feel that what is being suggested would undermine California's 
efforts through these revisions. So I want to give you that 
message; you got it in California. And as you look at the 
revisions, please keep it in mind. Is that fair?
    Mr. Bost. Absolutely. And we will do so and we have done 
so.
    Mr. Waxman. Good.
    Could I just continue with one last question?
    Mr. Burton. Sure.
    Mr. Waxman. The new USDA guidance states that food stamp 
nutrition education funds may not be used to convey negative 
written, visual, or verbal expressions about any specific food, 
beverage, or commodity. USDA staff has the right to review 
educational campaigns to make sure that there is no 
``belittlement or deregation'' of such items. Can either of you 
explain the origin of this policy? What scientific evidence 
supports this policy and how many educational campaigns have 
been rejected because they belittled specific foods or 
beverages?
    Mr. Bost. One, that preceded me, and the only one that I 
can think of was one that was using the money to talk about 
soft drinks in a specific State. But it is also in statute. And 
I think you read exactly from statute.
    Mr. Waxman. And the statute says that you cannot belittle--
--
    Mr. Bost. If it is, it is very close.
    Mr. Waxman [continuing]. Or have deregation of a food 
product?
    Mr. Bost. If it is not, it is very close to that, if memory 
serves me correct.
    Mr. Waxman. Well, I would like to----
    Ms. Watson. Can you yield?
    Mr. Waxman. Sure.
    Ms. Watson. On that very specific point, if we have a 
particular cola drink that we know has caffeine in it, if that 
is pointed out as a risk, is that considered--I don't know the 
definitions of belittling.
    What was the other word?
    Mr. Waxman. Deregation.
    Ms. Watson. Deregation. I don't know what the definitions 
are. Is there a definition in the statute?
    Mr. Bost. Congresswoman Watson, I don't know, I will have 
to look at it and see. I think the issue is about being able to 
target a particular food or food group. I think that is what 
the issue is, especially with public funds.
    Mr. Waxman. Well, let me ask you this, if you can get us 
for the record a full explanation of how this provision was 
developed. If it is our fault, let us know. And then a 
correspondence with the food industry and all examples of State 
educational programs that were rejected by USDA staff based on 
this definition. So that will allow us to know how big a 
problem this is in the States' efforts to deal with it.
    Thank you, Mr. Chairman.
    Mr. Burton. Let me, before I yield to Ms. Watson, just say 
that I am one of the biggest free enterprise advocates that 
there is in the Congress, I am sure, but if we are taking 
exception and we are making exceptions to certain companies or 
certain industries because we are afraid it will hurt their 
sales, while at the same time it is hurting the American people 
by creating more obesity and more health problems, then we have 
our horses going backward here.
    The fact of the matter is if there is something that is 
causing a health problem, and it is in legislation that we 
can't say anything about it because we might hurt in some way 
that industry, then we need to re-evaluate that. I don't want 
to hurt any industry because, as I said, I believe in free 
enterprise, but, at the same time, if caffeine or if too much 
sugar or too much fat in a product is going to be detrimental 
to the American public and the taxpayers and the health of this 
Nation, then we have to re-evaluate and start telling people, 
hey, if it is this kind of a sandwich or this kind of a cola 
that is causing a problem, then we have to have it changed. And 
we need to attack that problem, because the growth of this 
problem is unbelievable.
    Ms. Watson.
    Ms. Watson. I want to follow kind of in that train as well. 
As a teacher and school psychologist and a member of the school 
board, first thing I did is go into our kitchens and find out 
what we were preparing for our youngsters to eat. We might have 
found a product that we felt was detrimental to their health. 
In describing the detriment, you have to describe the product 
and what is in the product.
    So what I would like to see is some definition of what you 
mean by belittling or degrading. We need to have a definition, 
because I am reminded of a bill--you know, California is 
unique, we do it first--and we had a bill that would tax junk 
food. It sunsetted because we could not decide what junk food 
really was. You know, is caramel popcorn junk food or is there 
a nutritional value?
    So I don't know how we would really make this work if we 
didn't have some definitions or some standards when we point 
out the problems with a particular food. So can you respond to 
that?
    Mr. Bost. Yes. But, Congresswoman Watson, in terms of the 
very specific example that you gave in terms of schools, the 
foods that are reimbursable have to meet the dietary 
guidelines, and other foods that are served that are a la carte 
are determined by the schools. So the schools themselves can 
make a determination of what they believe is appropriate or not 
appropriate, and would not necessarily fall in our purview. 
But, like I said, for those foods that are reimbursable on the 
national school lunch program, they have to meet certain 
guidelines. So the very specific example that you gave me is 
not applicable in this specific instance.
    Ms. Watson. But maybe you can clear it up for me. If the 
schools determine, can they also point out a product that would 
be injurious to someone's health? Would that fall under your 
reference to belittling?
    Mr. Bost. No. It is left to the discretion of the school. 
There are two forms of food that are served in schools: one, a 
la carte, that the school decides to serve, actually, maybe 
three, those that are in the vending machines, and foods that 
are reimbursable by us. There are three categories of foods. 
Those foods that are reimbursable have to meet certain 
guidelines that we spell out; the other two are left entirely 
at the discretion of the schools.
    Ms. Watson. Well, the reimbursable foods, can a school 
district say these foods, and particularly some of them, are 
detrimental, and would that be considered belittling?
    Mr. Bost. Well, that is difficult for me to answer because 
since I have been Under Secretary I don't think that has ever 
occurred.
    Ms. Watson. I said we do it first in California.
    Mr. Bost. Well, no. The school has the discretion whether 
they want to serve it or not. They don't have to say it is 
detrimental. If it is a reimbursable food, then they have the 
choice of whether they are interested in serving it or not. So 
they don't have to say it is detrimental, because they can 
choose not to serve it. They can do what they want.
    Ms. Watson. OK, would you write me a letter as to what the 
standards for belittling or detrimental, whatever the other 
was?
    Mr. Bost. Yes, we will.
    Ms. Watson. So I will have a clear understanding. Thank you 
very much.
    Mr. Bost. You are quite welcome.
    Mr. Burton. Before we let you go, it seems to me that maybe 
your agencies could recommend to the Congress, after doing a 
little bit of research, what we could do to better define what 
is a food with too much fat, too much sugar, or too much 
something else in it. No, I am serious. I am serious, because 
we are not just talking about school foods here. You look at 
the huge increase in the amount of obesity among adults and 
huge increase in the amount of people who are overweight that 
are not considered obese among adults, and you consider the 
health risk factors connected with that, and we really need to 
do a better job of educating in addition to just the schools in 
this country.
    I mean, I am not going to name products here because I will 
be shot before I get out of the building, but the fact of the 
matter is you go into a supermarket and you look at packages of 
various products that you want to take home and eat while you 
are watching a football game, and the fat content is huge. But 
the people don't think about that because they haven't been 
educated about that. And I think that we ought to be educating 
them about that, and we need to have some kind of a definition 
here in the Congress so that we can set the proper parameters 
on how your agencies can illuminate the issue for the American 
people. Right now it seems to me like you have all kinds of 
restrictions on you, and we need to lift those restrictions so 
we can better educate the American people.
    Mr. Bost. Well, Mr. Chairman, to some extent we are in the 
process of doing that. We are currently reviewing the dietary 
guidelines for American, both USDA and Health and Human 
Services, and also the Food Guide Pyramid is currently under 
review. So to some extent we are in the process of doing that.
    Mr. Burton. Well, manufacturers of these various products, 
it seems to me, also ought to get the message, and maybe if we 
eliminated some of the barriers that you have to deal with 
legislatively, you could probably talk to them in a little 
stronger way. Not that I like to see Government sticking its 
nose into the private sector, but when you start talking about 
these astronomical health care costs related to obesity, you 
realize that something has to be done, especially when you are 
talking about one out of every three kids born today are going 
to have diabetes if we don't do something.
    I just got back from Guam and Saipan not too long ago, and 
they don't have enough dialysis machines to take care of the 
population over there, American citizens who are dying from 
diabetes. We don't need to have one out of three kids growing 
up in the next 25 years that have diabetes; we won't have 
enough money to buy dialysis machines and keep them alive. So 
anything you can recommend that we can do legislatively to help 
and to educate the American people, I am sure Representative 
Watson and Waxman and myself would be happy to do.
    Ms. Watson. Mr. Chairman, Representative Waxman wanted to 
submit these two letters for the record.
    Mr. Burton. Sure. Without objection, so ordered.
    Thank you, gentlemen. We will go to our next panel now.
    Our next panel consists of Ms. Alison Kretser, the director 
of scientific nutrition policy at the Grocery Manufacturers of 
America; Mr. Hunt Shipman, executive vice president, government 
affairs and communications for the National Food Processors 
Association; Mr. Morgan Downey, executive director of American 
Obesity Association; Dr. Daniel Spratt, director of 
reproductive endocrinology, Maine Medical Center, Endocrine 
Society of America; and Dr. Thomas Wadden, vice president of 
North American Association for the Study of Obesity.
    Would you please stand so you can be sworn?
    [Witnesses sworn.]
    Mr. Burton. Let me just say it is 5 after 3, and I think 
many of my colleagues have left because we have adjourned for 
the week because of the religious holidays. I will probably be 
the only one here for this panel, but I can assure you the rest 
of the committee will be getting this information. The reason I 
bring that up is we have another meeting that I have to go to 
at 4, so I would like for you to limit your comments, if you 
would, to 5 minutes so we can get to the questions.
    Ms. Kretser.

STATEMENTS OF ALISON KRETSER, DIRECTOR OF SCIENTIFIC NUTRITION 
    POLICY, GROCERY MANUFACTURERS OF AMERICA; HUNT SHIPMAN, 
       EXECUTIVE VICE PRESIDENT, GOVERNMENT AFFAIRS AND 
 COMMUNICATIONS, NATIONAL FOOD PROCESSORS ASSOCIATION; MORGAN 
 DOWNEY, EXECUTIVE DIRECTOR, AMERICAN OBESITY ASSOCIATION; DR. 
  DANIEL SPRATT, DIRECTOR, REPRODUCTIVE ENDOCRINOLOGY, MAINE 
 MEDICAL CENTER, ENDOCRINE SOCIETY OF AMERICA; AND DR. THOMAS 
  WADDEN, VICE PRESIDENT, NORTH AMERICAN ASSOCIATION FOR THE 
                        STUDY OF OBESITY

    Ms. Kretser. Thank you for the opportunity to discuss the 
efforts of the food and beverage industry to help combat 
obesity in America. My name is Alison Kretser. I am a 
registered dietician and I am the director of scientific and 
nutrition policy for the Grocery Manufacturers of America.
    As the leading voice of the food and beverage industry in 
the obesity and nutrition debate GMA has established a long-
term commitment to arrest and reverse obesity in America, and 
to provide consumers with the information and resources they 
need to establish healthy dietary habits for life.
    As the companies that make the foods Americans choose every 
day, GMA member companies recognize their role in not only 
offering choices that meet consumer demand for taste, quality, 
and convenience, but also, just as importantly, health.
    On GMA's commitment I can assure you that I am speaking for 
the leadership of the industry. The CEOs on the GMA board have 
adopted a global strategy on food and health that states our 
resolve in no uncertain terms. As you know, we are supporting 
the efforts that Congress has undertaken to combat obesity. GMA 
was an original and enthusiastic supporter of Congressmen Wamp 
and Udall's Congressional Fitness Caucus. We also support 
passage of the Improved Nutrition and Physical Activity Act 
[IMPACT], introduced by Congresswoman Mary Bono.
    We applaud Congress for its initiatives, but there is a 
great deal more that everyone, including the food industry, can 
do. We recognize that food is the energy input side of the 
healthy weight equation, and numerous efforts are underway to 
help consumers better understand how they can balance what they 
eat with what they do. For example, companies are formulating 
products to meet the health demands of consumers. Efforts 
include: reformulating products to reduce calories, fat, and 
sugars; introducing new products with increased fiber and whole 
grains; and offering new choices for smaller product serving 
sizes.
    However, one of our challenges is to provide and promote 
products that make eating not only healthy, but enjoyable. 
Having introduced numerous healthy products that do not pass 
the consumer taste test, we know that people will not buy foods 
they do not enjoy. In the coming months consumers will see many 
more of these products that meet their demand for both health 
and taste.
    Just as importantly, GMA has provided USDA and HHS with 
numerous recommendations on how to make the dietary guidelines 
for Americans and the Food Guide Pyramid relevant and useful 
for all consumers, while also incorporating the latest science. 
Specifically, we have urged USDA to retain the shape of the 
Pyramid, a well-recognized brand among consumers. However, to 
increase its utility, we have recommended that USDA link both 
the size and number of servings to the Nutrition Facts panel, 
which is based on a 2,000 calorie diet. While a single image of 
the Pyramid cannot educate consumers about all aspects of the 
Government's dietary recommendations, it can, when used on food 
labels and elsewhere, serve as a reminder of what a healthy 
diet looks like.
    However, the Nutrition Facts panel is not always a well 
understood tool among consumers. For that reason, GMA and its 
member companies are funding research regarding consumer 
perception about calories and serving sizes on the Nutrition 
Facts panel. The goal is not just to educate consumers, but to 
improve the labels to meet their needs.
    In addition to offering new products and improved nutrition 
information, GMA and many of our member companies founded the 
American Council for Fitness and Nutrition to promote the 
critical balance between nutrition and physical activity for a 
healthy lifestyle. Now representing 91 companies and 
organizations, the Council's work is guided by an advisory 
board of 27 experts in the fields of nutrition, physical 
activity, and behavior change.
    This year the Council launched two pilot programs targeting 
the specific needs of the Hispanic and African-American 
populations, which are disproportionately impacted by obesity 
and related diseases. One of this subcommittee's members, 
Congressman Cummings, was at the launch of the Council's Summer 
Fun Food and Fitness Program in Baltimore and is familiar with 
its goals and the children's achievements. Both programs 
incorporated healthy eating and cooking segments, and an 
emphasis on making physical activity a daily habit.
    In conclusion, with the intense public focus on obesity, 
healthy, and nutrition, we have an unprecedented opportunity to 
combat obesity and to improve public health. Through improved 
nutrition information and product innovation, we can give 
consumers the tools they need to build healthy diets and to 
maintain a healthy weight. Thank you.
    [The prepared statement of Ms. Kretser follows:]

    [GRAPHIC] [TIFF OMITTED] T8212.039
    
    [GRAPHIC] [TIFF OMITTED] T8212.040
    
    [GRAPHIC] [TIFF OMITTED] T8212.041
    
    [GRAPHIC] [TIFF OMITTED] T8212.042
    
    [GRAPHIC] [TIFF OMITTED] T8212.043
    
    [GRAPHIC] [TIFF OMITTED] T8212.044
    
    [GRAPHIC] [TIFF OMITTED] T8212.045
    
    [GRAPHIC] [TIFF OMITTED] T8212.046
    
    [GRAPHIC] [TIFF OMITTED] T8212.047
    
    Mr. Burton. Thank you.
    Mr. Shipman.
    Mr. Shipman. Thank you, Mr. Chairman. I am Hunt Shipman, 
executive vice president of government affairs and 
communications for the National Food Processors Association 
located here in Washington.
    NFPA is the voice of the $500 billion food processing 
industry, and our three scientific centers, our scientists, and 
professional staff represent food industry interests on 
government and regulatory affairs and provide research, 
technical services, education, communications, and crisis 
management support for our U.S. and international members.
    Obesity is a multi-faceted issue and requires a multi-
disciplined approach. I would like to briefly discuss efforts 
now underway that we believe can be successful in helping to 
combat obesity.
    The food industry has a long history of providing consumers 
with safe, affordable, and nutritious foods that meet their 
expectations for taste, value, and convenience. Innovation and 
reformulation are key tenets for our industry. Food companies 
have responded to consumer demand by creating a variety of 
reduced, low and non-fat food products, reduced and low-calorie 
foods, and foods modified for specific dietary and medical 
needs. Such foods help ensure that all consumers can find 
products they need to create their own healthful diet.
    An important fact to remember is that the greatest source 
of nutrition information for most consumers is the Nutrition 
Facts panel found on the foods they purchase every day. The 
Nutrition Facts panel was developed and designed to help make 
consumers aware of the various nutritional components in food, 
and it also can be an excellent weight management tool.
    NFPA is now preparing a consumer-friendly brochure on 
following food labels for healthy weight management, featuring 
easy-to-understand information on food labels and how labels 
can help them attain or maintain a healthy weight by making 
wise food choices. This consumer information will be on NFPA's 
Web site, where it can be downloaded by consumers and health 
experts, or anyone who communicates to consumers about how to 
better understand food labels.
    Because of the importance of physical activity in combating 
obesity, the food industry sponsors a number of programs 
designed to encourage children's physical activity and 
nutrition education, such as the University of North Carolina's 
Get Kids in Action program and Triple Play, the Boys and Girls 
Club of America's new health and wellness initiative, to 
promote healthy lifestyles.
    As Ms. Kretser noted, the food industry has also endorsed 
legislation designed to provide more Government support for 
school physical activity programs, such as the Impact bill. We 
believe that Federal support for in-school physical activity 
programs is important to the success of such efforts. And the 
food industry has actively participated in numerous conferences 
and other public events to discuss various approaches to 
combating obesity.
    As I noted at the beginning of our remarks, obesity is a 
multi-faceted issue, and no one approach or activity will solve 
this situation. Clearly, labeling alone will not bring about 
the behavioral changes needed to reduce obesity in this 
country. We need to ensure that the information we provide to 
consumers is linked to both motivational and actionable 
education messages so that consumers will use nutrition 
information to create healthful diets. Such messages need to be 
thoroughly researched and consumer-tested.
    In 2004, both USDA and HHS have been active participants in 
the process of reviewing the Dietary Guidelines for Americans, 
as well as the Food Guide Pyramid. Revised versions of both the 
Dietary Guidelines and the Pyramid are scheduled to be released 
in early 2005. Throughout the review process for the Dietary 
Guidelines and Pyramid, NFPA has strongly advocated that these 
nutrition education tools must be easily understood and must 
trigger the behavioral change by the public. Attention to 
positive dietary guidance messages, coupled with consumer 
research to evaluate their effectiveness in motivating 
behavioral change is essential. federally funded biomedical and 
behavioral research related to health promotion and disease 
prevention is also needed.
    Food companies succeed by meeting consumer demand, and 
clearly the consumer demand for both a wide variety of food 
products to meet varying dietary needs and the demand for more 
information on how to attain or maintain a healthy wealth is 
strong. Labeling flexibility will help to create incentives for 
products designed to meet consumers' needs and demands. 
Government's role should be to ensure that labeling and claims 
that can help consumers to better understand the role that 
various foods can play in healthful diets is both truthful and 
non-misleading.
    In closing, stakeholders, including the food industry, 
Government, and the medical and public health communities will 
have to work together. Without cooperative efforts, we will 
make no progress in this issue. Dedicated collaboration, 
energy, and resources will make a difference in the classroom, 
on the playground, in the home, and throughout our Nation.
    Thank you for the opportunity to appear before the 
committee.
    [The prepared statement of Mr. Shipman follows:]

    [GRAPHIC] [TIFF OMITTED] T8212.048
    
    [GRAPHIC] [TIFF OMITTED] T8212.049
    
    [GRAPHIC] [TIFF OMITTED] T8212.050
    
    [GRAPHIC] [TIFF OMITTED] T8212.051
    
    Mr. Burton. Thank you, Mr. Shipman.
    Mr. Downey.
    Mr. Downey. Thank you, Mr. Chairman, and I want to thank 
you for convening this hearing. I hope it is the first of 
several on this topic, because it is very complicated and 
complex.
    I also would like to take this opportunity to applaud the 
work of Secretary of Health and Human Services, Tommy Thompson, 
over his tenure. He has taken on obesity as a major issue. He 
has led the components of HHS to develop comprehensive and 
sound plans for attacking this problem. We also hail his 
decision in July for Medicare to recognize that obesity is a 
disease and to open the door to developing appropriate 
treatment strategies for treating it.
    In the opinion of the American Obesity Association, obesity 
is the most fatal, chronic, prevalent disease of the 21st 
century. No other human condition combines obesity's prevalence 
and prejudice, sickness and stigma, death and discrimination. 
We believe that the full weight of the Federal Government's 
capacities be brought to bear on the problems of obesity in the 
same way we have tackled other challenging health problems like 
cancer, heart disease, smoking, teen pregnancy, HIV-AIDS, and 
bioterrorism. All such efforts have involved a commitment of 
leadership, time, and resources across a spectrum of 
activities, including education, research, prevention, 
treatment, consumer protection, and discrimination.
    I would like to briefly touch on each of these areas and 
what the Federal Government may be doing.
    On the educational front, although we have had a spate of 
information and features on obesity, it is still largely 
misunderstood in many corners, and this is true in the policy 
area as well. One of the things that we have overlooked, as you 
saw earlier the slides from the CDC, is that while the 
population has doubled over 30 years who had a BMI of 30, the 
population with a BMI of 40, morbidly obese, has tripled during 
that period of time, and the population with a BMI of 50 has 
increased some 400 percent.
    The problems of obesity--mortality, morbidity, sickness, 
health care costs, health care utilization--scale up, so those 
increasing levels of severe morbid obesity, where people are 
100 pounds or more overweight, is really where a large part of 
the problem is. We have tended to think of this as a 
statistically small part of the population. It is not. If all 
of the persons in the United States with morbid obesity live 
together, it would basically be the 12th largest State in the 
country, roughly the size of Illinois. It would encompass, as 
my crude estimates take it, 29 congressional districts. The 
population with morbid obesity, just morbid obesity alone, is 
over two and a half times the size of our entire Alzheimer's 
population. This population receives nothing in the way of 
research or many of the programs and policies that have been 
discussed to attack their problems at that level.
    We have important educational messages that we think need 
to be brought out. Obesity is not a behavior; obesity is excess 
adipose tissue. It is a disease because it meets every 
rationale definition of disease. It is a chronic, fatal, 
relapsing disease that is at least as complicated to treat as 
heart disease or cancer. It is a problem that is largely going 
to be solved by more research. And while diet and exercise are 
intrinsic to discussions of obesity prevention and treatment, 
much more is needed as the long-term effects of these 
interventions are poor.
    Obesity is a global problem arising from a combination of 
genetic, environmental, and behavioral factors. We don't know 
how to effectively prevent and treat obesity over the long 
term, with the exception of bariatric surgery for persons with 
morbid obesity. If we do not drastically and quickly expand the 
research base of obesity, new treatments and new prevention 
strategies are likely to fail, and it will sink the entire U.S. 
health care system, which simply cannot absorb millions of new 
cases of diabetes, heart disease, stroke, and the other 
conditions you have mentioned. Simplistic assertions that 
obesity is easily prevented or easily remedied do a disservice 
to persons with obesity and inhibit the discovery of effective 
solutions.
    We believe that one of the areas that is most important to 
address is this area of research. I have provided the committee 
with three graphs I will briefly describe. One depicts the 
growth in the NIH budget since 1998, roughly doubling from 
$13.6 billion to $28.8. And yet you will see although there has 
been a dollar increase in the obesity budget it has basically 
been a straight line as the funding has increased so 
dramatically.
    Second, the obesity budget at NIH is far behind that of the 
conditions caused by obesity, such as diabetes, cardiovascular 
disease and, in comparison to some areas like HIV-AIDS and 
smoking, receive a very small portion of the funding.
    And, finally, we have a graph here depicting the prevalence 
of various conditions and comparing that to NIH levels of 
funding. It is hard for us to imagine how we are going to get 
out of the problem with this insufficient attention to our 
research base to give us the information to get there.
    So for that reason, as well as some others, we are calling 
on Congress to look at establishing a National Institute of 
Obesity research at NIH which would focus and concentrate 
attention on the various problems such as basic research, 
epidemiology, genetics, neuroscience, prevention, therapeutic 
development, economics, health policy, etc.
    Mr. Chairman, I have more to say, but I see my time is out. 
I would be glad to address some areas if you would like me to.
    [The prepared statement of Mr. Downey follows:]

    [GRAPHIC] [TIFF OMITTED] T8212.052
    
    [GRAPHIC] [TIFF OMITTED] T8212.053
    
    [GRAPHIC] [TIFF OMITTED] T8212.054
    
    [GRAPHIC] [TIFF OMITTED] T8212.055
    
    [GRAPHIC] [TIFF OMITTED] T8212.056
    
    [GRAPHIC] [TIFF OMITTED] T8212.057
    
    [GRAPHIC] [TIFF OMITTED] T8212.058
    
    [GRAPHIC] [TIFF OMITTED] T8212.059
    
    [GRAPHIC] [TIFF OMITTED] T8212.060
    
    Mr. Burton. Thank you, Mr. Downey.
    Dr. Spratt.
    Dr. Spratt. Thank you. Chairman Burton, I would like to 
begin by thanking you for the opportunity to testify here 
today. I am director of reproductive endocrinology and 
endocrine research at Maine Medical Center. In my clinical 
practice I deal every day with both adolescents and adults with 
obesity-related problems. I am here today as Chair of the 
Government Relations Committee for Endocrine Society.
    The Endocrine Society is the world's largest and most 
active professional organization of endocrinologists, 
representing over 12,000 members worldwide. We are dedicated to 
quality research, patient care, and education.
    I will be primarily addressing issues of research in 
obesity today. In the other presentations you have heard the 
magnitude of the obesity problem in the United States. Our 
Society has provided to your committee our Obesity Handbook 
that provides additional details. This Handbook is part of a 
major effort of the Endocrine Society that has been undertaken 
over the past 2 years to increase scientific and public 
awareness of the obesity crisis.
    As you have noted and other panel members, the Federal 
Government has also set in motions efforts to begin to tackle 
the obesity problem. In addition to those measures noted 
before, NIH Director Dr. Zerhouni has created the NIH Obesity 
Research Task Force. Its strategic plan for obesity research, 
which was released in February of this year, calls for the NIH 
to undertake research exploring, preventing, and treating 
obesity through lifestyle modification, pharmacological, and 
surgical approaches, and research that further examines the 
link between obesity and its associated health conditions, such 
as metabolic syndrome.
    Several important questions confront us. What is the cause 
of obesity? Is it genetic, cultural, environmental? Well, the 
truth is there may be no one cause of obesity, but, rather, a 
combination of many, with different combinations in different 
individuals. Why are more than 65 percent of Americans 
overweight or obese?
    And even more alarming, why has childhood obesity tripled 
since 1970? Why are racial and ethnic minorities 
disproportionately affected by obesity and related ailments 
such as diabetes and cardiovascular disease? While we should 
not single out one cause or one issue for obesity, I have been 
asked today to update the committee on current research being 
conducted by those in the field of endocrinology.
    What role can our Society play in helping you address these 
problems? Well, as you know, endocrinologists work with 
hormones and metabolism. Hormones are substances that are 
secreted by glands that regulate body functions. For instance, 
the thyroid gland secrets thyroid hormone, which regulates 
general body metabolism. Well, researchers have recently 
discovered that adipose, fat tissue, actively secretes hormones 
that influence many body functions, and that the adipose is in 
turn regulated by hormones from other glands.
    As metabolic specialists, endocrinologists are actively 
engaged in the study, management, and treatment of obesity and 
related diseases. In both the clinical and basic research 
setting, we evaluate the hormones that regulate appetite, 
metabolism, and energy balance. Endocrine researchers are 
attempting to determine the root causes of obesity and to find 
the most effective measure to prevent, as well as combat, this 
condition.
    One recent endeavor resulted in the discovery of the 
hormone leptin by Jeff Friedman at the Rockefeller Institute, 
and this opened a whole new dimension in the field of obesity. 
Leptin is a hormone produced by fat cells that travels in the 
blood stream to the brain to influence appetite. It also 
influences body temperature, reproductive function, and the 
speed at which calories are burned.
    This important discovery established the principle that fat 
cells can communicate with the brain and influence metabolic 
processes. Since this discovery, there have been many more 
discoveries demonstrating that other organs, like the pancreas 
and the GI tract, can produce substances that control appetite 
and metabolism.
    It is also worth noting that breakthroughs in obesity 
research have resulted from what we call ``broad-based'' 
research. This is research that is conducted without a 
particular clinical goal established at the onset of the 
research. For example, scientists at Mass General Hospital have 
recently evaluated thousands of genes from the C. elegans worm. 
Among other discoveries, they found hundreds of promising genes 
that may help determine how fat is stored and used in a variety 
of animals, including us.
    This new information can be used to find similar genes in 
humans and then assess their significance for the control of 
obesity. The decision to characterize this worm genome was not 
made with obesity in mind, but more for the general belief that 
deciphering this genome would have some payoff down the road. 
So we must continue to support broad-based research in science, 
as some of the most important breakthroughs have been 
serendipitous.
    This basic information lays the foundation for clinical 
research. For instance, currently there are only two FDA 
approved drugs for long-term treatment of obesity, and neither 
is fully effective. Clinicians routinely prescribe medications 
to treat the complications of obesity that have been listed 
here, but we only have these two pharmaceutical options to 
treat obesity before it results in co-morbidities. Better 
knowledge of the physiology and pathophysiology of obesity can 
lead to development of more effective drugs, as well as more 
effective nutritional, surgical, and other approaches. We, as 
doctors, and the American public as patients, need better 
medications based on the knowledge we will gain from basic and 
clinical research.
    We believe, finally, that obesity research should be 
continued on three levels. First, basic research should 
continue to better understand the body's complex mechanisms of 
storing and utilizing energy. Second, transitional research 
should be moving these basic discoveries into trials of 
clinical treatments. Our evolving knowledge will provide 
numerous opportunities for better diagnostic, pharmaceutical, 
surgical, nutritional, and behavioral approaches.
    Third, as these approaches are implemented, outcome or 
impact research should be designed and put in place to assess 
efficacy, as mentioned in part of the Impact bill. Finally, we 
should pay particular attention, as has been noted here, to the 
disproportionate occurrence of obesity and its related health 
problems in our childhood and minority populations.
    So I want to thank you for inviting me to testify here 
today, and thank your committee for furthering the public 
discourse on this growing problem of obesity.
    [The prepared statement of Dr. Spratt follows:]

    [GRAPHIC] [TIFF OMITTED] T8212.061
    
    [GRAPHIC] [TIFF OMITTED] T8212.062
    
    [GRAPHIC] [TIFF OMITTED] T8212.063
    
    Mr. Burton. Thank you, Dr. Spratt.
    Dr. Wadden.
    Mr. Wadden. Mr. Chairman, Ms. Watson, thank you for the 
opportunity to testify on behalf of NAASO, the North American 
Association for the Study of Obesity. NAASO's members include 
more than 1,800 scientists, practitioners, and educators who 
are dedicated to improving the prevention and treatment of 
obesity in the lives of those affected by this condition.
    I am Tom Wadden, the vice president of NAASO and professor 
of psychology at the University of Pennsylvania in 
Philadelphia.
    We have heard today that the United States is experiencing 
an epidemic of obesity. What can we do to control this public 
health crisis that threatens the lives and well-being of so 
many of our citizens? NAASO offers three recommendations today: 
first, increase the availability of treatment for people who 
are already obese; second, substantially strengthen efforts to 
prevent the development of obesity, particularly in children; 
and, third, double NIH funding for obesity research from its 
current level of $400 million. Let me briefly discuss each of 
these.
    In 2002, a landmark study supported by the NIH showed that 
a 15-pound weight loss reduced the odds of developing Type 2 
diabetes by more than half in overweight persons who were at 
risk of developing this illness. To meet their treatment goals, 
study participants received frequent individual counseling from 
dieticians and other health professionals.
    Remarkably, such treatment, though clearly effective, is 
not covered by most insurance plans today. Ironically, 
insurance companies pay to treat the complications of obesity, 
including high blood pressure, Type 2 diabetes, and heart 
disease, but they do not cover obesity itself. These serious 
medical problems could be prevented, or at least alleviated, if 
patients could obtain help in managing their weight.
    NAASO believes that the treatment of obesity should be 
reimbursed when provided by appropriately trained health 
professionals. NAASO met this morning with officials from the 
Centers for Medicare and Medicaid Services. We strongly urge 
Congress to direct CMS, in collaboration with private insurers, 
to develop guidelines for covering weight management services, 
including diet and exercise counseling, medications, and 
surgical interventions. We also urge Congress to assist 
universities, as well as State Departments of Health, in 
training more health professionals to provide weight management 
services.
    While we must treat obesity to prevent the development of 
health complications, our greater need is to prevent the 
development of obesity itself. As we have heard, America's 
children are of paramount concern. Fifteen percent of our youth 
are now overweight. An additional 15 percent are at risk of 
overweight; they are just a few pounds away. And we have heard 
about the explosion of Type 2 diabetes in pediatric clinics.
    NAASO urges Congress to provide greater support for obesity 
prevention programs. The Centers for Disease Control and 
Prevention, as we heard from Dr. Thompson, are playing a 
crucial role through their Division of Nutrition and Physical 
Activity, which administers the State-based Nutrition and 
Physical Activity Program.
    But only 28 States are currently supported by CDC, and of 
these only 5 are funded at an adequate level, the basic 
implementation level. Those States receive $750 million to $1.5 
billion per year. The United States needs this program in all 
50 States funded at adequate levels. NAASO urges Congress to 
strengthen support for this and other CDC initiatives, 
including its Division of Adolescent School Health and its VERB 
campaign that Dr. Thompson spoke of.
    The solution to our Nation's obesity epidemic seems so 
simple: people need to eat less and exercise more. And yet the 
solution could not be more complex, because so many factors 
influence our daily eating and activity habits, as you have 
already told us, Congressman Burton. Children today see 10,000 
food-related commercials on TV each year. Most are for sweet or 
fatty foods. How do these ads influence children's eating 
behavior and body weight at the age of 4 or 14 or later at 40? 
Think what your brother's weight would be today if he had seen 
10,000 food ads per year.
    How do TV and video games affect children's daily physical 
activity? We know it decreases it, but by how much? How does 
the design of a neighborhood, including the need to drive to 
school and to shopping centers, affect weight and well-being of 
children and their parents?
    Answers to such questions are urgently needed in order to 
develop the most effective prevention programs. We cannot 
expect children to make better food and activity choices long-
term until we create environments at home and at school that 
support better choices. Willpower is just not the answer for 
pediatric obesity.
    This past August the NIH published its Strategic Plan for 
Obesity Research, as Dr. Thompson said. This document 
identifies short and long-term research goals to improve 
obesity prevention and treatment, and to advance understanding 
of the multiple causes of this condition. As we heard, this 
includes groundbreaking research in genetics and 
neuroendocrinology that is identifying basic biological 
mechanisms for controlling eating, energy expenditure, and body 
weight. This research will further prevention and treatment 
efforts.
    NAASO urges Congress to double NIH's funding for obesity 
research from its current level of $400 million. Mr. Downey has 
told you how little support there is for obesity compared to 
other disorders. The NIH has a comprehensive program, but it 
will only succeed if sufficient resources are provided as have 
been provided in the fights against cancer, heart disease, and 
AIDS.
    Funds invested in obesity research will yield multiple 
benefits: as we reduce the number of Americans who are 
overweight and obese, we will dramatically reduce the many 
complications, including Type 2 diabetes, heart disease, and 
several cancers; and as important, we will reduce the personal 
suffering of the millions of Americans affected by obesity.
    Thank you for this opportunity to testify.
    [The prepared statement of Mr. Wadden follows:]

    [GRAPHIC] [TIFF OMITTED] T8212.064
    
    [GRAPHIC] [TIFF OMITTED] T8212.065
    
    [GRAPHIC] [TIFF OMITTED] T8212.066
    
    [GRAPHIC] [TIFF OMITTED] T8212.067
    
    [GRAPHIC] [TIFF OMITTED] T8212.068
    
    [GRAPHIC] [TIFF OMITTED] T8212.069
    
    [GRAPHIC] [TIFF OMITTED] T8212.070
    
    Mr. Burton. Well, thank you, doctors, ladies and gentlemen. 
We really appreciate the testimony. It was very enlightening, 
because I have always been of the opinion if you just ate less 
and exercise more, you would stay thin. But you have convinced 
me today that is not the only solution to the problem, although 
I think it is a big one.
    You said labels help. I think it was you, Ms. Kretser, who 
said that, I believe. And I think they do, but most people, 
when they are going to the store to get something for a 
basketball or football game, where they kick their feet up and 
you see these advertisements on TV where some guy is overweight 
and he is sitting in a big chair popping all this stuff, they 
don't read those things.
    Can't the food industry do something to educate the people 
through public service announcements in addition to those kinds 
of commercials? It just seems like to me, as the doctor just 
said, they see 10,000 food commercials per year, a child, and 
an awful lot of those are these junk food ads that lead to 
obesity. It seems to me, in addition to trying to find better 
foods with lower caloric intake and fat intake and so forth, 
that the food industry could, in their advertising or through 
public service announcements, educate the public as to what 
they should be eating. It would also help them in sales of the 
products that aren't so fattening.
    Is there any thought about that?
    Ms. Kretser. In response to your question, food advertising 
has the potential and it will play an important role in the 
battle against obesity. And I can tell you there is a sea 
change in the type of advertising that is done in the food and 
beverage industry. They are looking at how, within advertising, 
we can communicate healthy lifestyles so that if a food such as 
advertising a cookie, you show a child coming in from outdoors, 
being physically active, and then having the correct amount of 
a snack. We are very committed to advertising responsibly and 
portraying the correct way to use a food, and how much and the 
amount of the food. And if it is a snack food, that it isn't 
portrayed as replacing an entire meal. That is inappropriate.
    Mr. Burton. Well, all I can say is that I have never seen a 
commercial for a junk food or a fast food that said don't eat 
too much of this, now. They never say that; they always say--
and I don't want to get into specific products----
    Ms. Kretser. Well, we have in this country a self-
regulatory mechanism that is under the National Advertising 
Review Unit that CARU, which is the Children's Advertising 
Review Unit that has a set of principles that all of our 
companies adhere to in adveritising to children, and they 
review commercials for children under the age of 12, and we 
have a very high compliance rate if in fact they have an issue 
with how a food is----
    Mr. Burton. Well, pardon my English, but it apparently 
ain't working, because you have one in three kids that are 
being born today that are going to be a diabetic if we don't 
change things, and kids are getting fatter all the time, and 
the message----
    Ms. Kretser. Well, I think you have heard today that it is 
not just one single issue, such as advertising. There are many 
multiple factors that have changed as far as our lifestyle. 
Within the last 10 years our lifestyle is very, very different.
    Mr. Burton. No, I understand that. I understand that. But 
that is one part of the solution, and that is to educate. You 
know, I watch television like everybody else, and I see beer 
and alcohol commercials where they say drink responsibly.
    But with fast foods and things like that, I never hear them 
say eat responsibly. I am not saying that is the solution, it 
just seems to me that the industry, while developing foods that 
are better for us that still taste good, that they can also do 
something to talk about caloric intake and fat intake. We don't 
want to discuss this ad infinitum, but I just hope that maybe--
--
    Ms. Kretser. We do communicate. We have a great deal of 
information on nutrition on company Web sites, and I encourage 
you to look at major manufacturers' Web sites, all of the 
information that they have available for consumers.
    Mr. Burton. I would be happy to look at those Web sites, 
but that is not what I am talking about. We are talking about 
10,000 commercials a child sees in a year, not their Web site. 
A lot of kids are very, very good with computers, but they 
don't rush to the computer to look at what kind of things they 
should eat; they see that coming into the television when they 
watch a movie or watch some kind of other thing.
    Ms. Kretser. I understand what you are saying, but I will 
say that parents are a tremendous role model, and Government, 
as far as schools as well, but parents, you teach how you eat. 
I have two children, and they have watched me for years.
    Mr. Burton. I want to ask some other questions. Let me just 
tell you we have latchkey kids now. More husbands and wives are 
working than ever before. When I was a boy, my mom worked and 
my stepfather worked, and my dad went to the slammer because he 
was a bad apple. But the fact of the matter is today probably 
60, 70 percent of the families, both parents work, and the kids 
come home and they spend time watching television, and the 
parents don't have the opportunity, as they did in the past, to 
go into these things in detail.
    I am a free enterprise advocate, as I said, and I don't 
like to mess around with the private sector. Let me just 
finish. I just think that the industry would be well served not 
only to come up with new products that taste good, that people 
can consume in a way that will be safer, but also so that they 
can help educate the kids, because the parents, in many cases, 
aren't there to do it.
    I have a couple of other questions I would like to ask 
before my time runs out.
    You said, Dr. Wadden, that we ought to double the amount 
for research for obesity from $400 million to $800 million a 
year. I don't disagree that is probably a good goal. We have 
severe budgetary constraints right now. Is there any other way, 
other than spending another $400 or doubling the amount of 
money being spent on research, to help solve these problems for 
things other than just advertising and caloric intake?
    Mr. Wadden. Well, I think that we are going to have more 
dialog between the private sector and industry, academia and 
Government and the public sector, because I do agree we are 
going to have to have multiple sources coming together to work 
on this problem. I think the NIH plays such an important role 
in terms of trying to figure out what are the causes, where are 
the most productive avenues to intervene.
    Your State is ahead on things. In Los Angeles you have 
decided to take sugared sodas out of vending machines, which I 
highly applaud. We would like to be able to say is that a good 
decision, does that in fact reduce obesity? So those are the 
kinds of grassroots movements that we could provide funding for 
from NIH to see if that is a good target. It is a better target 
to do what you are thinking about, going more after maybe 
television advertising aimed at children or at the food 
industry.
    So we do need money for basic research at NIH that can 
address these issues, as well as the types of issues you raise, 
but the partnership has to be with industry, with State 
government, as well as the Federal Government doing its part.
    Mr. Burton. Let me just ask Dr. Spratt a question real 
quick. You said we need more research for drugs to help combat 
obesity. It seems like we have a pill for everything. And you 
may be correct, I don't know. Do we really need more 
prescription type drugs to deal with the obesity problem? Would 
our money be better spent in education and that sort of thing, 
rather than, after the fact, giving people pills to control 
their appetite?
    Dr. Spratt. Well, I personally agree with you, and I think 
our community would too, that the knowledge that we are gaining 
can lead to many approaches besides just some medicines that 
will help control obesity. However, for a subset of patients 
with morbid obesity, where nothing else is working, that is at 
great risk, these effective medicines are a great benefit in 
reducing the problems of diabetes and cardiovascular disease. 
So it is one part, I believe, of the solution, certainly not 
the whole solution.
    Mr. Burton. Ms. Watson, I will yield to you. I am sure my 
time has expired.
    Ms. Watson. These are issues that we have been dealing with 
for decades, and I am looking at the industries that produce 
these foods, fast foods in particular, and in certain areas in 
my district you can go into one block and you could find five 
or six fast foods, particularly fried chicken. We have new 
donut shops now, nothing but oil, dough, carbohydrates. And our 
kids whose parents are not in the home, homes most often are 
dysfunctional, will have breakfast in the morning, a donut and 
a Pepsi, a donut and a Coke. That is their breakfast. So what I 
see is a partnership.
    At least we have labeling now, and in a lot of the 
restaurants they tell you what is in the food and how it is 
prepared somewhat. But they are, I think, attractive nuisances. 
What can we do to bring the food production industry, our 
educational services, our health services together on this and 
not appear too heavy-handed with it?
    But we are going to have to do a better job somewhere along 
this way of educating people, and I don't think a pill is the 
answer, because naturally our body will digest and use the fats 
it needs and get rid of the others. But the problem is how do 
our children in today's world really know how to use that 
Pyramid. I remember, and I am talking about another life when I 
went to school, that it was emphasized; now we hardly mention 
it. So anyone want to speak to that?
    Mr. Downey. If I could. I think we have to take drug 
development as a serious tool here. We are accustomed to using 
this to control things like cholesterol, to control 
hypertension. And if we did have an array of several, five or 
six kinds of medications like we have for diabetes, 
hypertension and the like, we could get a lot of these problems 
under control and not have the higher expenses that come from 
leaving it untreated. So I look at this as just another chronic 
disease. Drug medications are a common way that we approach 
these.
    And while the environmental activities, areas like you have 
touched on, are extremely interesting, we have around the world 
really kind of natural experiments going on, countries that are 
changing from one kind of lifestyle more to a western 
lifestyle; maybe they don't have television advertising, maybe 
they don't have vending machines. We really don't know what is 
happening there in terms of whether those are influencers, 
controllers on obesity or not.
    Since you raised it, I will mention about the fast food 
franchises in particularly low-income minority areas. I don't 
have the figures in front of me, but I came across information 
a few years ago that for the Small Business Administration this 
is a major part of their whole economic development program in 
many minority areas. So the article I read indicated that this 
is what the SBA was largely doing with its minority economic 
development program, was supporting these franchises in these 
economically depressed communities that provided a lot of jobs 
and income.
    So the issues become a lot tougher to tease out. And while 
we talk about food advertising, we also have a situation that 
Congress, as is true in virtually every western democracy, 
heavily subsidizes the agricultural industry. We produce twice 
as many calories per person per day as we need in this country. 
This creates great demands. We can increase portion sizes 
without really taking in the cost of food very much; it puts a 
premium on advertising and marketing to get market share, etc.
    I know Dr. Wadden and I have talked about these a lot, and 
he is an expert in these. These are tradeoffs. These things 
were developed to create obesity, but our whole society is 
really geared to reducing physical activity. We have engineered 
physical activity out of our time. We are trying to increase 
production so American workers are now working longer, harder, 
more productively than ever before. We are using technology 
where we didn't just 5 or 10 years ago. And these are all 
creating this environment or lifestyle. It is very hard for an 
individual to change that; that is the environment that we are 
all in.
    Ms. Watson. Well, we sit here and we talk about the 
problem, and I kind of hear an acceptance of the problem. I am 
hoping from you to hear more about how we then resolve these 
problems for the future. The free market is going to continue 
to produce its goods as long as they are meeting a profit; 
however, we worry about the physical health of Americans and 
what we can do and what policies we can set, and I do hope that 
we can hear back from you as to how you can help us guide 
policy that would improve the health of Americans.
    Mr. Burton. Thank you, Ms. Watson.
    Well, let me just say you have been a very interesting 
panel. I really appreciate the illumination of a lot of the 
issues that I wasn't familiar with. One thing that I noticed, 
Mr. Shipman, I didn't ask you a question, but you and the young 
lady next to you there, Ms. Kretser--is it Kreetser?
    Ms. Kretser. Kretser.
    Mr. Burton. Kretser. Excuse me, I am sorry.
    I think one of you indicated that the Food Processors 
Association produces about $500 billion a year in product. So 
it is a very, very large industry in this country. I don't know 
how much of that they utilize for advertising or for public 
service announcements, but I would just like to suggest that 
maybe in the process of developing new and better foods that 
will help solve this problem, that they might be able to do 
some advertising which will help in that direction and use just 
a few of those dollars to educate the public so that we can 
maybe enlist their help to solve the problem. Government can't 
do it all.
    Dr. Wadden asked for $400 million more. We have a huge 
budget deficit right now. We have a war we are fighting in 
Iraq. We have the war against terrorism. We have to increase 
our intelligence activities, the CIA and FBI, to protect the 
American people against an attack by terrorists.
    So we don't have the luxury of being able to put an extra 
$400 million or $500 million here or $5 billion there, or 
whatever it happens to be. But the industry that produces these 
products, and does in a way contribute to the problem, could be 
a big help to us by educating the public through their 
advertising and through public services announcements, as well 
as coming up with new products that taste good.
    I would love to sit down and watch a football game where I 
could eat to my heart's content and not get fat. Right now I 
can't do that. But if you guys come up with something, I will 
buy that product day and night.
    With that, thank you very much for being here. We really, 
really appreciate it.
    We stand adjourned. We will have another hearing on this in 
the future.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T8212.071

[GRAPHIC] [TIFF OMITTED] T8212.072

[GRAPHIC] [TIFF OMITTED] T8212.073

[GRAPHIC] [TIFF OMITTED] T8212.074

[GRAPHIC] [TIFF OMITTED] T8212.075

[GRAPHIC] [TIFF OMITTED] T8212.076

[GRAPHIC] [TIFF OMITTED] T8212.077

                                 <all>

</pre></body></html>
